   Office of Inspector General
       Audit Report


NEW YORK CITY FULTON STREET TRANSIT
CENTER: FTA’S SUSTAINED FOCUS ON KEY
 RISK AREAS WILL BE NEEDED UNTIL THE
       PROJECT IS COMPLETED
         Federal Transit Administration


         Report Number: MH-2011-150
         Date Issued: August 15, 2011
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: New York City Fulton Street Transit              Date:    August 15, 2011
           Center: FTA’s Sustained Focus on Key Risk Areas
           Is Needed Until the Project Is Completed
           Federal Transit Administration
           Report Number MH-2011-150

  From:                                                          Reply to
           Joseph W. Comé                                        Attn. of:   JA-40
           Assistant Inspector General
              for Highway and Transit Audits

    To:    Federal Transit Administrator


           The Federal Transit Administration (FTA) is responsible for overseeing the New
           York Metropolitan Transportation Authority’s (MTA) construction of the Fulton
           Street Transit Center project (Fulton Street project) in New York City (see
           figure 1, page 2). According to MTA’s most recent estimates, total costs to
           complete the Fulton Street project will be $1.4 billion, with an expected
           completion date of June 2014. The project’s Federal share, $1.27 billion,
           represents approximately 90 percent of the total projected cost, and includes
           $847 million in Lower Manhattan September 11 Recovery funds and $423 million
           in American Recovery and Reinvestment Act (ARRA) funds. ARRA funding for
           Fulton Street is the largest single award for any of FTA’s ARRA projects. As with
           all ARRA-funded projects, it must meet the Office of Management and Budget’s
           (OMB) requirements for unprecedented levels of accountability.

           Accordingly, we conducted this audit to: (1) evaluate the effectiveness of FTA’s
           oversight of the Fulton Street project, including cost, schedule, funding, and any
           grantee management issues and (2) assess whether ARRA requirements are being
           met. We interviewed FTA and MTA officials; reviewed relevant FTA guidance
           and requirements; assessed FTA and ARRA-related documents, including key
           documents that described project risks and risk mitigation strategies; and
           examined ARRA reports MTA submitted to the Federal Government and
           contractor invoices. We conducted this audit from April 2010 through May 2011,
           in accordance with generally accepted government auditing standards for
                                                                                                                   2


performance audits. Additional details of our audit scope and methodology are
described in exhibit A.

       Figure 1. Artist’s Rendering of the Fulton Street Transit Center




       Source: MTA


RESULTS IN BRIEF
FTA has provided sufficient oversight of the Fulton Street project by approving a
projectwide recovery plan, 1 identifying specific risks that could negatively impact
the project’s costs or schedule, and monitoring MTA’s implementation of
strategies to mitigate the identified risks. As a result, the Fulton Street project’s
current cost and schedule estimates have remained within the parameters FTA and
MTA agreed to in August 2009. However, FTA will need to sustain this level of
oversight because the project is approximately 3 years away from its estimated
“substantial” completion date, 2 with complex construction remaining. 3
Additionally, FTA and MTA must maintain vigilance in overseeing ongoing risks
to the successful completion of the project, including preventing schedule delays;
maintaining the project’s budget; ensuring the project remains within current

1
    FTA requires a project grantee to develop a recovery plan and submit it for approval. A recovery plan documents a
    grantee’s proposed measures to accomplish new milestones and costs to complete a project when it determines that
    schedule delays and costs increases or both will occur.
2
    Substantial completion is when project activities are accomplished, and it is ready for revenue operations.
3
    As of March 2011, construction was 46 percent completed, based on expenditures.
                                                                                                                     3


committed funding amounts; and combating fraud, waste, and abuse, with a
particular focus on Disadvantaged Business Enterprise (DBE) fraud. Events in the
past year illustrate the importance of focusing on DBE fraud. Following
Department of Transportation (DOT) Office of Inspector General (Inspector
General) investigations, two prime contractors agreed to pay approximately
$20 million each to resolve criminal investigations into DBE fraud on federally
funded contracts in New York, including an FTA-funded project. These
contractors are performing work on Fulton Street, heightening the risk of fraud
and the need for proactive mitigation efforts.

FTA’s oversight has ensured MTA established controls to comply with ARRA
requirements on accounting for ARRA dollars, but FTA did not detect errors in the
number of ARRA-funded jobs MTA reported. Our review of sampled transactions
and related contractor invoices, cost breakdowns, and inspection reports
determined that MTA could account for nearly $15 million in ARRA-funded
transactions. However, our review showed that MTA’s June 30, 2010, quarterly
report 4 on the Fulton Street ARRA-funded jobs did not calculate the number of
jobs consistent with instructions to estimate the number of jobs funded based on
actual hours worked. OMB’s guidance 5 and FTA’s instructions to its grantees
provide directions for calculating this estimate based on the number of actual
hours worked and funded by the Recovery Act during the reporting period.
Instead, MTA, in some cases, reported jobs based on estimated hours. For
example, MTA overreported approximately 10 of the 27 ARRA-funded jobs one
contractor claimed during that period. 6 Based on our finding, MTA initiated a
review to validate the accuracy of all ARRA-funded contractor hours it reported;
but as of May 2011, it had not completed its review.

We are making recommendations to FTA to take additional steps to enhance its
oversight of MTA’s DBE program and MTA’s training and processes for
submitting accurate ARRA required jobs information.

BACKGROUND
Initiated in the aftermath of the September 11, 2001, terrorist attacks, the Fulton
Street project is intended to improve access to and connections between 11 New
York City subway lines near the World Trade Center site in Lower Manhattan.
The project includes a large transit center building, with notable architectural

4
    ARRA section 1512 requires a recipient that received ARRA funds to submit a report each calendar quarter that
    contains for each funded project: (1) the total amount of recovery funds received; (2) the amount of funds received
    that were expended or obligated; and (3) the number of jobs funded, expressed as “full-time equivalents’’ (FTEs).
5
    OMB Memoranda, M-10-08, “Updated Guidance on the American Recovery and Reinvestment Act – Data Quality,
    Non-Reporting Recipients, and Reporting of Job Estimates,” December 18, 2009.
6
    After MTA reports its data on www.FederalReporting.gov, FTA reviews the data, and the Recovery Accountability
    and Transparency Board releases the data on www.recovery.gov.
                                                                                                           4


features, and the restoration of an adjacent historic building. As shown in figure 2,
the project’s estimated cost at completion has increased by approximately
$650 million, from $750 million to $1.4 billion; and its estimated “substantial”
completion date has been extended by almost 7 years, from December 2007 to
June 2014. 7 Key factors behind the cost increases and schedule delays were
MTA’s need to redesign the transit center to address security concerns, a 5-year
extension of the project, higher real estate acquisition costs, and higher-than-
estimated construction contract bids.

       Figure 2. Cost and Schedule History on the Fulton Street Project
            $1,600                                       Jun-14        Jun-14 Dec-14

            $1,400                                                              Aug-13
                                                             $1,400 $1,400
       M    $1,200                                                              Apr-12
       i
            $1,000                           $904                               Nov-10
       l                            $847
       l                    $750
              $800                                                              Jul-09          Cost to
       i                                      Nov-09                                            Complete
                                   Jun-09
       o      $600                                                              Feb-08          Substantial
       n                                                                                        Completion
                        Dec-07
       s      $400                                                              Oct-06

              $200                                                              May-05

                $-                                                              Jan-04
                        Feb-03    Oct-05     Jun-07    Aug-09     Dec-10
                              Date of Cost and Schedule Estimates

    Source: OIG analysis.

In 2008, the OIG reported on the major challenges that FTA and MTA, the
project’s grantee and manager, faced in preventing cost increases and schedule
delays. 8 Initially, Federal funding of $847 million was committed for the Fulton
Street project under the Lower Manhattan Recovery program (funded in the
aftermath of the September 11, 2001, terrorist attacks), and that funding was
intended to cover all project costs. However, to cover the estimated project cost
increases that have occurred since the Lower Manhattan Recovery program funds
were committed, in 2009 and 2010 FTA awarded a combined total of $423 million
in ARRA funds for the Fulton Street project.



7
     Both estimates were developed during the conceptual design stage of the project.
8
     OIG Report Number MH-2008-086, “Baseline Report on the Lower Manhattan Recovery Projects,” September 26,
     2008. OIG reports and testimonies are available on our website www.oig.dot.gov.
                                                                                   5


FTA’s Region II Office in New York City, and its component Lower Manhattan
Recovery Office (LMRO), are responsible for overseeing MTA’s construction of
the Fulton Street project. Due to the urgency of rebuilding high-priority projects in
Lower Manhattan after the devastating September 11 terrorist attacks, LMRO
worked with the project grantees on streamlined project delivery processes to
provide project oversight. A project oversight team consisting of FTA staff and
contractors are overseeing MTA’s project, financial, and environmental
management, as well as procurement systems reviews. FTA developed a “manage
to the risk” oversight approach to customize the level and kind of oversight and a
risk assessment approach to measure the adequacy of schedule and cost
contingencies. As part of this approach, FTA requires that MTA develop a
recovery plan that documents measures to meet new milestones, cover increased
costs, or both. To date, FTA has approved eight recovery plans for the Fulton
Street project.

FTA IS PROVIDING SUFFICIENT OVERSIGHT, BUT A
SUSTAINED FOCUS ON KEY RISK AREAS WILL BE NEEDED
UNTIL THE PROJECT IS COMPLETED
FTA and its project management oversight contractor (PMOC) are providing
sufficient oversight of the Fulton Street project by working with MTA to identify
risks that could negatively impact the project’s costs or schedule and by
monitoring MTA’s implementation of strategies to mitigate these risks. As a
result, the Fulton Street project’s cost and schedule estimates have remained
within the parameters FTA and MTA agreed to in August 2009. However, the
work is far from complete. Accordingly, FTA will need to sustain a heightened
level of oversight because the project is approximately 3 years away from its
“substantial” completion date, with complex construction remaining. Specifically,
key focus areas to ensure the successful completion of the project are preventing
schedule delays; maintaining the project’s budget; ensuring the project remains
within current committed funding amounts; and combating fraud, waste, and
abuse, with a particular focus on DBE fraud.

FTA Has Used Its Oversight Tools Effectively on the Fulton Street
Project
FTA has effectively employed several tools to oversee the Fulton Street project.
Specifically, FTA has:

   • Employed a PMOC to augment its oversight capabilities. FTA assigned
     a PMOC to perform day-to-day oversight of the Fulton Street project,
     perform risk assessments, forecast revised costs and schedule estimates
     based on those risks, and monitor MTA’s risk mitigation efforts. FTA has
     provided MTA with the results of the risk assessments and both parties
                                                                                   6


       have discussed mitigation strategies. Based on our analysis and interviews,
       we determined that FTA and the PMOC were providing sufficient oversight
       of MTA’s implementation of agreed-upon risk mitigation strategies.

   • Required recovery plans to help prevent further cost increases and
     schedule delays. FTA requires MTA to submit a recovery plan for FTA
     approval whenever MTA determines that schedule delays or cost increases
     will occur. In August 2009, FTA conditionally approved MTA’s eighth
     recovery plan, and in April 2010, formally approved the recovery plan after
     receiving additional information from MTA. It outlined a revised strategy
     for procuring construction contracts and revised cost and schedule
     estimates. We reviewed the project’s five ARRA-funded contracts and
     MTA’s procurement strategy for completing the project with multiple,
     smaller construction contracts. We concluded that MTA’s recovery plan
     mitigated the possibility of higher costs and schedule delays at this time.

   • Ensured sufficient funding sources were committed to cover costs. The
     Fulton Street recovery plan proposed the addition of $423 million in ARRA
     funding and an increase of $74 million in local funding. In 2009 and 2010,
     FTA approved the ARRA funding. FTA’s action in response to the
     recovery plan, essentially solved MTA’s dilemma of identifying funds to
     cover the significant cost increases that had occurred before 2009—after
     the $847 million in September 11 recovery funding and $56 million in local
     funding were no longer sufficient to cover costs.

A Sustained Focus on Cost, Schedule, Funding, and Fraud
Prevention Is Needed Until the Fulton Street Project Is Completed
While FTA’s oversight of MTA to date has ensured the project is on schedule and
within budget, years of complex construction work remains. Based on our
evaluation of FTA and MTA risk assessments, and discussions with FTA and
MTA officials, the project will continue to face risks related to cost increases,
schedule delays, funding shortages, and DBE fraud. Accordingly, FTA will need
to continue focusing its ongoing oversight on these risks.

Preventing further cost increases. The Fulton Street project has already
experienced substantial cost estimate increases. According to MTA, the following
projectwide risks could result in an increase in costs and, as a result, will need to
be managed carefully:

   • construction contractors experiencing unforeseen utility costs;

   • MTA labor costs increasing due to schedule delays;

   • MTA and other stakeholders initiating design changes; and
                                                                                                                7


       • contractors improperly installing waterproofing and grouting in the later
         stages of the project, requiring MTA to pay for corrective actions.

    Keeping the project on schedule. The project still faces the risk of schedule
    delays that could result in increased costs. Based on MTA’s analysis, the
    following schedule risks could impede MTA’s ability to meet its estimated
    substantial completion date of June 2014:

       • delays due to multiple contractors working simultaneously at the same site;

       • failure of contractors to meet project equipment and facilities specifications
         during the post-construction operational testing period;

       • a contractor’s failure to meet required quality assurance standards, resulting
         in the need for repairs or rework of construction; and

       • a construction contractor’s failure to install required equipment in the
         expected time frames.

    Ensuring committed funding continues to cover project costs in the
    long-term. Keeping the Fulton Street project within current funding levels is
    critical, considering MTA is experiencing severe financial difficulties; and the
    potential of another Federal stimulus like ARRA is unknown. The need to keep the
    project on schedule is also necessary because MTA must draw down ARRA funds
    from the Treasury by September 30, 2015. If the project is delayed, MTA might
    not be able to use ARRA-obligated funds before the expiration date, requiring
    MTA to make up any difference in costs. In FTA’s approval letter for the recovery
    plan, FTA stipulated that if costs exceed the $1.4 billion estimate, MTA must
    identify additional resources to fund the shortfall. 9

    Combating fraud, waste, and abuse. Preventing DBE fraud is particularly
    challenging on this project. Prior OIG work on DOT’s implementation of ARRA,
    as well as FTA’s internal ARRA risk assessment, reported that the possibility of
    fraud, waste, and abuse occurring on an ARRA-funded project could be significant
    due to the rapid infusion of billions of dollars into the economy. In our most recent
    DOT Top Management Challenges report, 10 we noted that within the ARRA
    program, 50 criminal investigations for alleged crimes were open, of which 30
    percent concerned possible DBE fraud. OMB’s ARRA implementation guidance
    directs Federal agencies to be aggressive in preventing fraud on projects like
    Fulton Street.

9
     MTA’s cash flow projections show that the ARRA funds will be spent before the Treasury cutoff date of
     September 30, 2015. FTA’s PMOC has determined that sufficient budget contingencies remain to cover unexpected
     costs on the project.
10
     OIG Report Number PT-2011-010, “DOT’s Fiscal Year 2011 Top Management Challenges,” November 15, 2010.
                                                                                                                        8


 In addition, the history of malfeasance in the New York construction industry
 heightens the risk of DBE fraud occurring on the Fulton Street project. For
 example, on November 29, 2010, the United States Attorney’s Office for the
 Eastern District of New York announced that a prime contractor on MTA projects,
 including an FTA-funded Lower Manhattan Recovery Project, agreed to pay a
 $20 million civil forfeiture to resolve a criminal investigation into DBE fraud. In
 March 2011, a second Fulton Street project contractor entered into an agreement
 with the United States Attorney’s Office for the Southern District of New York
 and agreed to pay approximately $20 million to resolve a DBE fraud investigation.
 Both of these contractors are working on the Fulton Street project, which
 underscores the need for FTA to ensure MTA has an effective program in place to
 certify and monitor DBEs. In January 2011, DOT revised its regulation that
 requires MTA’s DBE program include a written certification that any work
 committed to a DBE is actually performed by that DBE. FTA conducted a DBE
 compliance review of MTA in October 2010 and found that MTA’s DBE program
 had not been updated to comply with those revised requirements. On June 15,
 2011, subsequent to the release of our draft report, FTA finalized its report on the
 review—a step that was needed to ensure MTA quickly addressed the weaknesses
 identified.

 Finally, MTA management must ensure its employees know how to identify “red-
 flag” indicators of fraud and report them to the appropriate authority, such as the
 DOT Inspector General. 11 Renewed vigilance on the part of MTA staff is
 imperative because, in January 2010, MTA decided to terminate its use of integrity
 monitors—also known as independent private-sector inspectors general 12—on the
 Fulton Street project. Our previous work on major transit projects supports the use
 of integrity monitors as the “eyes and ears” of management at construction sites.
 For example, the MTA Inspector General’s 2009 annual report cited the former
 integrity monitor’s role in the successful prosecution of a DBE fraud case on the
 Fulton Street project. 13

 MTA HAD ADEQUATE CONTROLS TO COMPLY WITH ARRA
 REQUIREMENTS, BUT MTA REPORTED INACCURATE JOBS
 INFORMATION
 FTA’s oversight has ensured MTA complied with ARRA requirements related to
 maintaining accountability for the efficient and effective expenditure of ARRA

11
     FTA’s grant agreement with MTA requires any credible evidence that a false claim, or criminal or civil violation of
     law involving Recovery Act funds, be reported to the U.S. DOT Inspector General.
12
     An independent private-sector inspector general is an independent firm with legal, auditing, and investigative skills,
     employed by an organization to ensure compliance with relevant laws and regulations and to prevent, uncover, and
     report unethical and illegal conduct.
13
     According to MTA, as of June 23, 2011, it was in the process of hiring an integrity monitor for the Fulton Street
     project.
                                                                                                                        9


 dollars, and reporting timely information to the Federal Government, including the
 number of ARRA-funded jobs. FTA ensured MTA was aware of ARRA’s
 requirements by notifying MTA of the direct jobs reporting requirements and
 holding webinars where FTA offered technical assistance on how to report the job
 data. However, FTA’s required data quality review of MTA’s job information did
 not detect some errors our audit later discovered. This indicates the need for FTA
 to enhance its process for reviewing MTA’s submissions and ensuring MTA
 adheres to OMB’s requirements for reporting accurate data.

 FTA Ensured MTA Has Controls To Comply With ARRA
 Accountability and Timely Reporting Requirements
 MTA had adequate controls to ensure its ARRA-related expenditures were in
 compliance with ARRA accountability requirements. To assess compliance, we
 judgmentally selected five invoices, totaling $14.5 million, that four of the five
 Fulton Street project contractors submitted to MTA and that MTA paid for with
 ARRA funds. Our review included information supporting the selected invoices,
 such as detailed cost breakdowns and daily inspection reports, and concluded these
 expenditures were documented and in accordance with contract terms. 14
 According to MTA documentation supporting its section 1512 report, as of
 June 30, 2010, its ARRA expenditures totaled $30.8 million. Our review of
 information contained in FTA’s Transportation Electronic Award and
 Management (TEAM) database and contractor invoices confirmed the accuracy of
 MTA’s reported expenditures.

 Further, FTA has overseen MTA’s efforts to meet ARRA reporting requirements.
 Specifically, FTA staff administered training webinars on reporting requirements
 to MTA and reviewed the information in MTA’s sections 1201 15 and 1512 reports
 to ensure it was reasonable and complete. For example, MTA submitted
 section 1512 reports that identified ARRA grant expenditures, the description of
 work performed and the types of jobs funded for each of the ARRA contracts, and
 the number of ARRA-funded jobs. The Recovery Accountability and
 Transparency Board published the data from the reports on the Federal
 Government’s ARRA website (www.recovery.gov) quarterly, as ARRA mandates.
 Because each ARRA recipient must continue to submit reports to the Federal
 Government until they have expended all ARRA funds received, FTA faces an
 ongoing challenge in providing proactive oversight to ensure MTA’s compliance
 with ARRA requirements for reporting accurate information.

14
     Our review of internal controls did not extend to determining whether each payment should have been made or that
     each was made in the correct amount. We have ongoing work evaluating whether FTA has adequate internal controls
     to prevent and detect improper payments to ARRA grant recipients.
15
     ARRA section 1201 requires recipients of DOT’s ARRA funds to submit periodic reports containing information
     tracking, on a cumulative basis on: (1) the amount of Federal funds appropriated, allocated, obligated, and outlayed;
     (2) the number of projects for which contracts have been awarded and the amount of ARRA funds associated with
     such contracts; and (3) the number of direct, project hours funded.
                                                                                                                     10


 FTA’s Process for Reviewing MTA’s Reports on Jobs Funded by
 ARRA Did Not Detect Errors
 While FTA Headquarters and Region II reviews met OMB’s requirement to
 perform limited data quality reviews of recipient data, these reviews were not
 sufficient to identify the reporting errors we later discovered. OMB guidance does
 not require specific documentation; however, it provides instructions for
 calculating job estimates using the number of actual hours worked. The use of
 such information is intended to provide a solid basis for ARRA recipients to
 accurately report estimates. To assess compliance with jobs reporting
 requirements, we reviewed submissions from one of five ARRA-funded
 construction contracts and found errors. The reported MTA jobs were calculated
 based on estimated hours worked by that contractor, rather than on the actual
 hours worked. FTA’s briefings to its grantees on ARRA requirements 16 instruct
 grantees to collect actual job hours and payroll information in calculating jobs. 17
 FTA performed “validation checks” of the information MTA submitted by
 comparing the number of job hours to the jobs reported, respectively, against the
 amount of expenditures reported. This not only identified the number of job hours
 and jobs, it also highlighted expenditures that were inordinately high or low. 18

 Our review found errors that were not identified in FTA’s reviews. MTA’s section
 1512 report estimated that 147 jobs were ARRA-funded for the reporting period
 ending June 30, 2010, but this figure was not supportable based on the
 documentation MTA provided to us. 19 For example, MTA overreported
 approximately 10 of the 27 ARRA-funded jobs one contractor claimed. After we
 found errors in the number of jobs reported, we asked MTA to survey
 documentation from its construction contractors to determine whether they made
 similar errors in the September 30, 2010, section 1512, quarterly report. MTA
 complied with our request and its survey found that in 14 of the 15 contractor
 submissions, the contractors based the ARRA job hours reported to MTA either on
 estimates or on incorrect information.

 In addition, MTA’s reported hours under section 1201 contained errors, dating
 back to August 2009, when section 1201 reporting began for the Fulton Street
 project. MTA’s survey discovered instances of both underreporting and
 overreporting of hours. According to the MTA documentation we reviewed, the
 ARRA-funded hours that MTA contractors reported contained errors. Based on

16
     FTA’s Tips for Successful 1512 Reporting, updated June 17, 2010.
17
     Direct hours worked that are ARRA funded are the data reported in the section 1201 reports and the basis for the
     data reported in section 1512 reports.
18
     Federal agencies are not required to certify or approve data reported on the Federal ARRA website, but must develop
     internal policies and procedures for reviewing reported data even to the extent of performing manual reviews.
19
     Documentation we reviewed included payroll records for one construction contractor and its subcontractors, the
     consultant construction manager, and MTA staff. It included the actual hours worked by a construction contractor for
     the pay periods covered under the section 1512 reporting period (ending June 30, 2010).
                                                                                 11


the contractors’ actual invoices, these contractors overreported approximately
4,400 of approximately 273,000 ARRA-funded hours from August 2009 through
November 30, 2010. These errors impact the job hours on MTA’s section 1201
reports, which are calculated based on cumulative direct ARRA-funded hours. As
of February 2011, MTA had planned to audit an additional 13,115 of ARRA-
funded hours reported for field office and clerical services.

While these error rates were not necessarily significant, because the ARRA
funding for Fulton Street is the largest funding FTA has awarded to any one
project and because a significant amount remains to be spent, it would be prudent
for FTA to increase the level of data quality reviews on the Fulton Street project
beyond the OMB requirements. According to OMB guidance, Federal agencies
may go beyond basic requirements and extract the reported data elements to
validate recipient reports for compliance, accuracy, and consistency. On Fulton
Street, this would involve performing reviews on a periodic basis for different data
elements in MTA reports. In addition, the errors found in MTA’s jobs reports
indicate that MTA and its contractors did not fully understand the need to provide
information based on actual hours.

CONCLUSION
As a steward of Federal funds, FTA provides oversight to ensure grantees keep
their projects on schedule and on budget. After experiencing cost increases and
schedule delays in the past, FTA’s oversight of MTA, to date, has ensured the
project is on schedule and within budget. However, years of complex construction
work remain. Ultimately, success in meeting cost and schedule targets will depend
on FTA sustaining a high level of oversight to ensure MTA takes effective and
timely actions to mitigate risks. Additionally, the infusion of ARRA dollars into
the Fulton Street project has magnified the need for FTA to expand its level of
oversight so that MTA meets ARRA requirements for full accountability,
transparency, and economic impact. Because approximately $324 million, or
77 percent, of ARRA funds awarded to the Fulton Street project remain
unexpended, FTA should continue to ensure that MTA meets ARRA
accountability requirements and strives to reduce errors in ARRA jobs reports as it
spends the remaining ARRA funds.

RECOMMENDATIONS
To enhance the level of oversight provided, we recommend that the Federal
Transit Administrator take additional steps to:
1. Finalize the compliance review of MTA’s DBE program and require MTA to
   develop an action plan to address expeditiously any weaknesses the review
   identified.
                                                                                                        12


 2. Identify steps FTA has taken or will take to increase its level of oversight for:

       a. Reviewing the ARRA information MTA submits to the Federal
          Government and

       b. Ensuring MTA has completed its audit of job data previously submitted,
          and documented its training plans and processes for complying with ARRA
          requirements to reduce omissions or errors in MTA’s future data
          submissions.

 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
 RESPONSE
 We provided a draft of this report to FTA on May 23, 2011. We received a joint
 response from FTA and the Office of the Secretary of Transportation (OST) on
 June 20, 2011, which is included in its entirety in the appendix to this report. In
 the response, FTA concurred with recommendation 1 and has completed the
 actions required to address the recommendation. Therefore, we consider it closed.

 Regarding recommendation 2, FTA and OST stated that we did not correctly
 interpret OMB guidance in our draft report and that additional oversight by FTA
 was not needed given the low error rate identified by our review. According to
 FTA and OST, the Fulton Street contractors complied with OMB guidance 20
 because the guidance requires ARRA recipients to submit only job estimates.

 We disagree. After considering FTA and OST’s comments and seeking
 clarification from OMB staff on the job reporting guidance, we continue to
 maintain that further FTA action is needed to reduce omissions or errors in MTA’s
 future job data submissions. OMB’s guidance and FTA’s instructions to its
 grantees on ARRA job reporting called for the use of actual job hours and payroll
 information in calculating job estimates. While the error rates we identified are
 modest, significant funds remain to be spent on the project. As we stated in our
 report, the Fulton Street project received over $400 million in ARRA funding, of
 which approximately $300 million remains unspent. Accordingly, FTA should
 ensure that MTA implements its planned actions to reduce the risk of future job
 reporting errors.

 ACTIONS REQUIRED
 In accordance with Department of Transportation Order 8000.1C, we are closing
 recommendation 1. For recommendation 2, we are requesting that FTA reconsider

20
     OMB Memorandum “Implementing Guidance for the Reports on Use of Funds Pursuant to the American Recovery
     and Reinvestment Act of 2009,” June 22, 2009.
                                                                                 13


its position based on the additional information provided in this report and provide
us, within 30 days, a revised response.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Thomas Yatsco, Deputy Assistant Inspector General, at
(202) 366-1302.

                                         #

cc: Lana Hurdle, Deputy Assistant Secretary for Budget and Programs
    Martin Gertel, DOT Audit Liaison (M-1)
    Angela Dluger, FTA Liaison, TBP-10
                                                                             14



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from April 2010 through May 2011 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We evaluated FTA’s oversight of the Fulton Street project based on the OIG
Framework for Evaluating FTA’s Oversight of Major Transit Projects. The key
components of this framework evaluated whether:

      • baseline cost and schedule estimates are realistic;

      • the Federal share of the funding is available and whether reliable local
        funding source(s) exist to cover the non-Federal share of project costs;

      • the project has a clear and transparent organizational structure and the
        project grantee is exhibiting sound project management practices;

      • disagreements about project design have been resolved and any needed
        third-party agreements have been reached or negotiations are
        progressing in a productive manner;

      • the project meets FTA criteria, guidance, and requirements for federally
        funded projects;

      • project management oversight contractors and financial management
        oversight contractors have conducted comprehensive, independent
        reviews of the project in accordance with FTA’s guidance and
        requirements; and

      • FTA and the project grantee have agreed to mitigation strategies to
        address the key project risks identified by FTA’s oversight contractors.

We reviewed FTA documents, including criteria, policies, and procedures, related
to its oversight of MTA’s Fulton Street project. In addition, we reviewed FTA’s
grant agreements, the PMOC’s monthly and spot reports, a Federal Management
Oversight Consultant assessment, FTA and MTA Risk Registers, and MTA
recovery plans. Also, we reviewed public laws; Federal regulations; OMB and
FTA ARRA-related guidance; and MTA’s ARRA-related policies and guidance,
certifications, contractor expenditures, and reports. MTA’s ARRA-related


Exhibit A. Scope and Methodology
                                                                                  15


documentation included payroll records for one construction contractor and its
subcontractors, the consultant construction manager, and MTA staff. To test
ARRA-related expenditures, we judgmentally selected 5 invoices, totaling
approximately $14.5 million, from a total of 21 invoices that totaled
approximately $37 million. The invoices were selected to include at least one
invoice, submitted to MTA for payment and reimbursement, from each of the four
ARRA active contracts and covering work performed through June 30, 2010. We
traced work items from invoice breakdowns to signed contracts. Based on the
testing we performed, we concluded that for the invoices we reviewed, MTA had
adequate controls in place to ensure ARRA expenditures were documented and in
accordance with contract terms. We performed limited testing to determine
whether MTA could provide us with documentation supporting line items invoiced
and the invoice contained the proper authorizations.

We conducted interviews with officials from FTA Region II and MTA officials,
located in New York, New York, as well as FTA’s Headquarters staff. Internally,
we consulted with OIG’s engineer-advisor and other teams conducting ARRA-
related audits. We also consulted our criminal investigations staff on issues related
to DBE fraud.

In addition, within the context of the audit objectives, the Government
Accountability Office Government Auditing Standards for internal controls
requires auditors to assess whether the organizations have properly designed and
implemented internal controls for protecting its resources against waste, fraud, and
inefficiency. MTA maintains a computerized database that identifies ARRA-
funded jobs data as reported by its contractors and in-house organizations. This
database is the basis for the reports MTA submits to the Federal Government to
comply with ARRA. To test the database, we judgmentally selected for review
ARRA job hours reported for the 2nd quarter of 2010—4 entries for process
controls and 10 entries for documentation supporting job hours reported—out of
34 entries. The entries were selected to include a broad spectrum of ARRA-funded
hours reported by outside vendors and MTA-related in-house labor, as of June
2010. Based on our testing, we determined that MTA’s database processing
system has controls to ensure the integrity of its computer-generated and
processed data for the entries we tested. However, the system lacked adequate
controls to ensure the contractor data complied with OMB’s Updated ARRA
guidance of December 18, 2009. Our review of internal controls did not extend to
making a determination of whether each payment should have been made or that it
was made in the correct amount. We have work ongoing to evaluate whether FTA
has internal controls to prevent and detect improper payments across all ARRA
grant recipients.




Exhibit A. Scope and Methodology
                                                                     16



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

  Thomas Yatsco                         Deputy Assistant Inspector
                                        General

  George Lavanco                        Project Manager

  Michael Dzandza                       Auditor

  Rosa Scalice                          Auditor

  Joseph Tschurilow                     Auditor

  Rodolfo Pérez                         Engineer Advisor

  Harriet Lambert                       Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                     17



            APPENDIX. AGENCY COMMENTS

                                                              Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration

Subject:    ACTION: Management Response to OIG Draft Report,           Date:    June 20, 2011
            “Actions Needed to Improve FTA’s Oversight of the
            New York City Fulton Street Transit Center”

  From:     Peter Rogoff, Administrator                             Reply to    Angela Dluger
            Federal Transit Administration                          Attn. of:   (202) 366-5303



            Lana Hurdle,
            Deputy Assistant Secretary for Budget and Programs
            and Co-Chair of the DOT Recovery Act TIGER
            Team

    To:     Calvin L. Scovel III
            Inspector General

 FTA Provided Effective Project Oversight

 We are pleased to see the OIG report recognize that FTA’s oversight of the New York Metropolitan
 Transit Authority’s (MTA) Fulton Street Transit Center (FSTC) project has been effective. The Fulton
 street project provides an important capability for New York City that is also a vital element of the
 continued healing process from the vicious terrorist attack on the city on 9/11. We are pleased the
 project remains on the schedule MTA adopted in 2008 and are mindful of the challenges ahead.

 Although not acknowledged in the report, FTA initiated a number of enhanced oversight actions to
 manage project specific risks relating to cost, schedule and quality of the FSTC. Since MTA intended
 to issue four separate contracts to construct the transit center building, FTA recommended that MTA
 identify an on-staff Integration Manager to identify and quickly address any interface issues between
 the contracts. When MTA decided to use ARRA funding for the project, FTA worked with MTA to
 identify and address any compliance measures for Recovery Act requirements, such as Buy America
 and Disadvantaged Business Enterprise (DBE). To ensure that the project was built to standards when
 the contract testing facility that was monitoring the project was indicted for faulty testing, FTA
 proactively required a testing plan which confirmed that the concrete did in fact met the design criteria.
 Lastly, to address the potential for fraud, waste and abuse, FTA recommended that MTA reestablish
 the use of an integrity monitor for capital projects.
 Recipient Job Estimates in Accord with OMB Expectations

 Appendix. Agency Comments
                                                                                                      18



FTA is in compliance with OMB’s guidance for performing necessary checks on grantee reported job
data. Based upon review of the information in the OIG draft report by both FTA and the Office of the
Secretary, and direct monitoring of the program by the Department, we have determined that the OIG
draft demonstrates neither a specific need for additional oversight in this case, nor does it present any
documentation that such additional oversight would be a cost beneficial investment of scarce
government resources.

The report asserts that Fulton Street contractors based Recovery Act recipient reports on estimates, “in
violation of OMB requirements.” This is not correct. OMB guidance M-10-08, dated December 18,
2009 in Section 5.1.2 states that “recipients of Recovery Act Funds subject to Section 1512 are
required to submit estimates of jobs created and jobs retained…in their recipient reports.” Section 5.2
further enumerates the key principles of reporting these estimates of jobs created and retained.
Specifically, in 5.2.1, the OMB guidance states, that “the Section 1512 reports contain only estimates
of jobs created and jobs retained.”

Neither Congress nor the OMB envisioned the type of pervasive and resource intensive oversight of
Recovery Act recipient reporting espoused in the OIG draft report. There is no expectation that Federal
agencies would verify grantees’ contractors’ timecards and other payroll documentation to “validate
recipient reports for compliance, accuracy, or consistency,” as asserted in the report. To the contrary,
the OMB guidance establishes the expectation of reasonable estimates accompanied by written
documentation. Section 5.2.10 states, “This guidance does not establish specific requirements for
documentation or other written proof to support reported estimates on jobs created or retained;
however, recipients should be prepared to justify their estimates. Recipients must use reasonable
judgment in determining how to best estimate the job impact of Recover dollars.”

Thus, it is clear that there was no intention of creating new compliance requirements, but to establish
reasonable methodology, supported by some documentation, for estimating the job impact of Recovery
Act spending. The OMB guidance established expectations for Agencies to perform limited data
validation checks for grantee reported job estimates. The OIG’s analysis in the report demonstrates that
FTA ensured MTA reported and provided appropriate controls in place.

Overall, the basis for this recommendation is unclear, as the OIG’s own, very detailed analysis of
source documentation including individual timecards for at least 273,000 Recovery Act funded hours
of work, the OIG identified it found potential errors relating to just 4,400 hours, or just 1.6 percent of
the reported hours. This represents an accuracy rate of 98.4 percent, an A by any grading system.

RECOMMENDATIONS AND RESPONSE

Recommendation 1: Finalize the compliance review of MTA’s DBE program and require MTA to
develop an action plan to address expeditiously any weaknesses the review identified.

Response: Concur. FTA finalized its compliance review of MTA’s DBE program on June 15, 2011.
The final report contains all of the findings resulting from the review, as well as an action plan from
MTA. A copy of the final report and action plan is attached and action pursuant to this
recommendation is complete.

Recommendation 2: Identify steps FTA has taken or will take to increase its level of oversight for:
Appendix. Agency Comments
                                                                                                19


       a. Reviewing the ARRA information MTA submits to the Federal Government and
       b. Ensuring MTA has completed its audit of job data previously submitted, and documented its
       training plans and processes for complying with ARRA requirements to reduce omissions or
       errors in MTA’s future data submissions.

Response: Non-concur. As described in the section above, FTA has provided adequate validation
checks in accordance with the expectations established in OMB guidance. There is neither a need, nor
demonstrated cost-effective benefit to such action offered in the OIG draft report. We consider this
recommendation closed.




Appendix. Agency Comments
